<html>
<title> - [H.A.S.C. No. 116-55] CLIMATE CHANGE IN THE ERA OF STRATEGIC COMPETITION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-55]

           CLIMATE CHANGE IN THE ERA OF STRATEGIC COMPETITION

                               __________

                                HEARING

                               BEFORE THE

   SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           DECEMBER 11, 2019
                           
                           


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-507                WASHINGTON : 2020 

                                     
  


   SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES

               JAMES R. LANGEVIN, Rhode Island, Chairman

RICK LARSEN, Washington              ELISE M. STEFANIK, New York
JIM COOPER, Tennessee                SAM GRAVES, Missouri
TULSI GABBARD, Hawaii                RALPH LEE ABRAHAM, Louisiana
ANTHONY G. BROWN, Maryland           K. MICHAEL CONAWAY, Texas
RO KHANNA, California                AUSTIN SCOTT, Georgia
WILLIAM R. KEATING, Massachusetts    SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 MIKE GALLAGHER, Wisconsin
CHRISSY HOULAHAN, Pennsylvania       MICHAEL WALTZ, Florida
JASON CROW, Colorado, Vice Chair     DON BACON, Nebraska
ELISSA SLOTKIN, Michigan             JIM BANKS, Indiana
LORI TRAHAN, Massachusetts
                Shannon Green, Professional Staff Member
                Jason Schmid, Professional Staff Member
                         Caroline Kehrli, Clerk
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities...................................................     1
Stefanik, Hon. Elise M., a Representative from New York, Ranking 
  Member, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities...................................................     2

                               WITNESSES

Langan-Riekhof, Maria, Director of the Strategic Futures Group at 
  the National Intelligence Council, Office of the Director of 
  National Intelligence..........................................     4
Mercado, Victorino, Performing the Duties of Acting Assistant 
  Secretary of Defense for Strategy, Plans, and Capabilities, 
  U.S. Department of Defense.....................................     6
Nikolich, Milan, Director, Defense Research and Engineering for 
  Research and Technology, Office of the Under Secretary of 
  Defense for Research and Engineering...........................     9
Tipton, Neill, Director for Defense Intelligence (Collection and 
  Special Programs), Office of the Under Secretary of Defense for 
  Intelligence...................................................     8

                                APPENDIX

Prepared Statements:

    Langan-Riekhof, Maria........................................    29
    Langevin, Hon. James R.......................................    27
    Mercado, Victorino, joint with Neill Tipton and Milan 
      Nikolich...................................................    36

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Stefanik.................................................    51

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
           CLIMATE CHANGE IN THE ERA OF STRATEGIC COMPETITION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
     Subcommittee on Intelligence and Emerging Threats and 
                                              Capabilities,
                      Washington, DC, Wednesday, December 11, 2019.
    The subcommittee met, pursuant to call, at 2:37 p.m., in 
room 2118, Rayburn House Office Building, Hon. James R. 
Langevin (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
 FROM RHODE ISLAND, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE AND 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. The subcommittee will come to order.
    We want to welcome everyone to today's hearing on ``Climate 
Change in the Era of Strategic Competition.''
    Today we will receive testimony on the impacts of climate 
change, from extreme weather events to changing Arctic ice 
coverage, on U.S. national security and how the Department's 
strategies and plans are addressing those critical challenges.
    Climate change appears to present three types of threats: 
direct threats to U.S. military installations, and to our 
ability to train and execute various missions, and more 
indirect geopolitical unrest. The IETC [Intelligence and 
Emerging Threats and Capabilities] Subcommittee held a joint 
hearing with the Readiness Subcommittee exactly 8 weeks ago 
today to discuss the resiliency of military installations to 
emerging threats, including climate change.
    Today's follow-on hearing is meant to highlight the threat 
that climate change presents geopolitically; home in on the 
Department's efforts to plan for the emerging operating 
environment; and hear about innovative approaches and 
technologies to address and ameliorate the threat.
    The Armed Services Committee, and this subcommittee in 
particular, has placed considerable focus on the intersection 
of climate change and geopolitics, and how that intersection 
implicates our strategic and operational planning. There's 
broad bipartisan agreement that climate change is going to have 
a significant--is going to have, and is having, significant 
implications for our defense posture. I want to be clear, the 
purpose of this hearing is not to debate the relative 
criticality of climate change as compared to other emerging 
threats, but rather to understand how climate is impacting our 
security, our ability to operate and to plan, and how climate 
change shapes the threats that we are already watching.
    How has Russia changed its posture in the high north to 
take advantage of an increasingly Arctic-free--ice-free Arctic, 
and how does drought in Iran inform the decision making of its 
leaders, as it would affect the decision making of leaders in 
other parts of world? Are violent extremist organizations, like 
Boko Haram, taking advantage of water scarcity and how is it 
affecting our food supply around the world to increase their 
power and influence? And what parts of world do we expect 
climate stresses to drive instability?
    So while I would have preferred to have our--have your 
senior leadership testify--and I want to put this on the 
record--we wanted to have your senior leadership testify before 
the subcommittee, I do want to thank all of our witnesses here 
today for your willingness to speak on this critical topic.
    So with that, I will now turn to Ranking Member Stefanik 
for her remarks. Before I do that, I want to thank the ranking 
member for your bipartisan support and recognition of the 
challenges that we face with respect to climate; and I want to 
turn the floor over to Ranking Member Stefanik.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 27.]

STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE FROM NEW 
YORK, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE AND EMERGING 
                    THREATS AND CAPABILITIES

    Ms. Stefanik. Thank you, Chairman Langevin, and it has been 
a true privilege to work with Jim on these issues for a number 
of years. Thank you for holding this important hearing today to 
discuss the critical role that the environment plays in our 
national security. I also appreciate that we will be discussing 
this within the context of strategic competition and the 
Department's planning efforts to support the National Defense 
Strategy, or NDS. Welcome to our witnesses. It is great to see 
you today.
    As you know, the issue of strategic competition as 
identified within the NDS can best be summarized as a challenge 
to U.S. prosperity and security from other nations, namely 
China and Russia, who seek to shape our economic, diplomatic, 
and security decision-making processes to their own advantage.
    When this committee hears from the Department of Defense 
about the National Defense Strategy, we often focus on policy 
issues and emerging military capabilities. It is important that 
we also consider the economic, diplomatic, and environmental 
impact on our constituents. A strong economy and clean 
environment are the most visible and public sign of American 
strength. The United States cannot unilaterally address the 
human causes of a changing climate.
    China is the world's largest emitter of greenhouse gases, 
and is currently building more coal-powered electrical 
production plants than the rest of the world combined. In fact, 
they are adding more coal fuel generation capacity than the 
entire European Union currently operates. Yet their existing 
capacity isn't even close to being used at full capacity, 
sitting idle for long periods of time. Because of poor energy 
sector management, China will negate the rest of the world's 
efforts to reduce greenhouse gases.
    In addition, nearly 50 percent of Russian Government 
revenue comes from taxes on fossil fuel industries, and the 
Kremlin recently announced tax breaks for oil exploration. 
Russia also plans to boost coal production in an effort to 
capture as much of the current market demand as possible, while 
also betting on the slow transition to cleaner energy sources.
    This committee and the American public are very aware of 
Russian efforts to control the information environment through 
internet trolls and state-backed media outlets. What is less 
known is that these same pro-Kremlin propaganda platforms 
routinely spread disinformation about climate-related issues, 
mostly focused on European nations, to undermine efforts to 
reduce reliance on Russian energy sources. Just like we must 
consider our competitors' military capabilities when we are 
modernizing our own defenses, we must consider the actions of 
other nations when developing solutions to a changing climate.
    Globally, a changing climate will provide additional 
instability in already fragile regions like the Middle East, 
Africa. It will create challenges for emerging nations in 
Southeast Asia, and could fuel rising tensions in contested 
areas like the Arctic.
    At the local level, we have seen--we have also seen the 
negative impacts of a changing climate in our communities, 
including in my own district in upstate New York. Pollution, 
extreme weather events, and invasive species threaten our 
native plants and wildlife; and they are harming productivity 
in key economic sectors such as construction, agriculture, and 
tourism, putting pressure on State and Federal budgets and 
adding to our long-term fiscal challenges.
    While most of the efforts to address climate change lie 
outside of this committee's jurisdiction, I am proud to work in 
a bipartisan manner with all of my colleagues to develop 
consensus-driven legislative solutions. I believe that our 
approach to addressing this issue must be done in a way that 
does not restrain, but enhances our ability to compete 
globally.
    And I want to mention one commonsense effort the Department 
is making at Fort Drum in my district. Fort Drum is 100 percent 
energy independent, using renewable sources to power training 
capabilities and enable operational flexibility, ensuring that 
we are resilient, energy secure, and ready for the 21st century 
challenges.
    I look forward to hearing additional feedback from our 
witnesses today.
    And with that, I yield back.
    Mr. Langevin. I thank you, Ranking Member Stefanik, and I 
thank you for your remarks.
    And I will turn to the--our witnesses. In January 2016, the 
Department assigned responsibilities for addressing the major 
risks to readiness and the vulnerabilities posed by climate 
change. Today, we will hear from individuals from the 
organizations tasked with executing those responsibilities.
    First, Dr. Neill Tipton is the Director of Defense 
Intelligence in the Office of the Under Secretary of Defense 
for Intelligence, USDI. The USDI is tasked with overseeing the 
planning, organizing, coordinating, and balancing of climate 
change for all DOD [Department of Defense] intelligence. The 
organization also coordinates with the DNI [Office of the 
Director of National Intelligence] on all related risks, 
potential impacts, considerations, and effects of altered 
operating environments related to climate change and 
environmental monitoring.
    Next, Ms. Maria Langan-Riekhof is the director of the 
Strategic Futures Group at the National Intelligence Council 
within the Office of the DNI. Ms. Langan-Riekhof's organization 
is responsible for the Global Trends strategic assessment that 
outlines how key trends and uncertainties, including climate 
change, should inform the national intelligence community and 
senior leaders.
    Mr. Victor--Mr. Victorino Mercado is the Acting Assistant 
Secretary of Defense for Strategy, Plans, and Capabilities in 
the Office of the Under Secretary of Defense for Policy [USDP]. 
The USDP is tasked with developing policies, plans, programs, 
forces, and posture needed to implement the DOD strategy, 
including adapting actions to increase resilience to climate 
change.
    And, finally, Dr. Milan Nikolich is the Director of Defense 
Research and Engineering for Research and Technology in the 
Office of the Under Secretary for Research and Engineering 
[R&E]. The Office of R&E is tasked with overseeing defense-
related research in climate science for the development of 
approaches and technologies that reduce risk and promote 
mission execution.
    With that, we will start with Ms. Riekhof, Ms. Langan-
Riekhof, to begin the opening statements.

 STATEMENT OF MARIA LANGAN-RIEKHOF, DIRECTOR OF THE STRATEGIC 
 FUTURES GROUP AT THE NATIONAL INTELLIGENCE COUNCIL, OFFICE OF 
             THE DIRECTOR OF NATIONAL INTELLIGENCE

    Ms. Langan-Riekhof. Chairman Langevin, Ranking Member 
Stefanik, and Chairman Garamendi----
    Mr. Langevin. Can you pull your mic down?
    Ms. Langan-Riekhof. It looks like it is on. Better? Okay. 
Thank you. And distinguished members of the committee, thank 
you for the opportunity to discuss the intelligence community's 
assessment of the national security implications of climate 
change.
    In my opening remarks, I will speak briefly about how the 
intelligence community approaches this topic; and I will 
highlight a few of the key implications for national security.
    The role of the intelligence community is to provide 
timely, objective, and relevant insights to advance national 
security. Our job is to consider all factors that could affect 
the global threat landscape, and this includes climate change. 
We examine how climate trends affect U.S. national security 
across a range of issues and dimensions. To inform our 
judgments, we rely on reports produced by U.S. Federal science 
agencies, peer-reviewed scientific journals, and reports from 
scientific organizations and panels.
    The intelligence community uses this reporting stream in 
conjunction with our all-source intelligence reporting. Our 
analysts produce intelligence assessments focusing on the 
implications for national security, and their work will be 
reflected in my testimony today.
    As we discuss these assessments, I would like to underscore 
a couple of points about what we do and do not know. For one, 
it is difficult to discern the national security implications 
of climate change in isolation, because it interacts with other 
environmental conditions and human factors. In many cases, 
climate change exacerbates existing stressors, such as natural 
resource constraints that contribute to food and water 
shortages.
    Second, it is difficult to project when and where specific 
disruptive events and other climatological effects will have 
the most significant national security impact because of the 
complexities in the Earth's systems, uncertainties in modeling, 
and the unpredictability of human choices. We do make judgments 
about the general risk factors.
    And in the next several years, we assess that the security 
risk for the United States linked to climate change will arise 
primarily from distinct extreme weather events, and from 
worsening preexisting problems around the world. The very 
studies I mention generally agree that during the next 20 years 
and beyond, climate change will increasingly compound extreme 
weather events. Many scientists warn that the abrupt--the risk 
of abrupt climate change, which would have the most severe and 
national security implications, will increase over the next 
several decades and beyond.
    I would also like to remind everyone that the intelligence 
community does not assess the direct impacts of climate change 
on the U.S. homeland.
    So, turning to some of the key implications of national 
security, I have submitted a statement for the record that 
provides our assessment of some of the effects of climate 
trends on various facets of national security. In my time this 
afternoon, I would like to highlight three of these: potential 
political instability, Arctic competition, and China's approach 
to climate issues.
    In the coming two decades, we assess that an increasing 
number of countries will encounter climate-related hazards such 
as extreme weather events, drought, heat that will stress their 
capacity to respond, to cope, and to adapt. We already have 
seen water crises exacerbate social unrest and immigration from 
fragile states in the Middle East and North Africa, such as 
Syria and Libya, in part by aggravating the effects of other 
factors including preexisting socioeconomic grievances, 
ineffective government institutions. With continued rising 
temperatures, more countries are likely to face such challenges 
with greater frequency, increasing the risk of unrest, of 
migration, and inter-state tension.
    Countries with weak political institutions, poor economic 
conditions, and other existing risk factors, such as political 
strife, probably will be the most vulnerable to climate-linked 
instability or migration and would be the hardest-pressed to 
respond and to recover from these crises.
    Second, we assess that the changing conditions in the 
Arctic will have significant security, economic, and social 
implications for both Arctic and non-Arctic states. Scientists 
tells us that the Arctic is warming at rates more than twice as 
fast as the rest of the earth. The Arctic would be free of ice 
cover in the summer, potentially as early as 2030, making it 
more consequential for economic insecurity reasons.
    These conditions would drastically shorten maritime routes 
between Asia, Europe, and North America and enable increased 
commercial activity including mining, energy exploitation, 
shipping, and fishing. As a result, the Arctic is emerging as a 
new domain for strategic competition as Russia, China, and 
others are dramatically increasing their activities and 
investments in the region.
    And, third, China is attempting to boost its image as a 
leader in combating climate change, despite its role as the 
largest carbon emitter, and its continued support for high 
emissions development globally. China played a pivotal role in 
2015 in broadening the scope of commitments by developing 
countries under the U.N. Framework Convention on Climate 
Change, and China repeatedly touts its more than $100 billion 
in annual investments in green technologies.
    However, the country remains the world's largest coal 
consumer, and is building mostly low-efficiency, coal-fired 
power plants abroad. Beijing is likely to continue to avoid 
energy decisions that impose significant economic costs.
    Climate change and its resulting effects have wide-ranging 
implications for national security, presenting both risks and 
challenges for the U.S. The IC [intelligence community] plays 
an important role in identifying and analyzing these 
implications for policymakers. We appreciate the opportunity to 
discuss our analysis and to share our work with Congress and 
the American people. I look forward to your questions.
    [The prepared statement of Ms. Langan-Riekhof can be found 
in the Appendix on page 29.]
    Mr. Langevin. Thank you very much.
    Mr. Mercado, you are recognized for 5 minutes.

STATEMENT OF VICTORINO MERCADO, PERFORMING THE DUTIES OF ACTING 
    ASSISTANT SECRETARY OF DEFENSE FOR STRATEGY, PLANS, AND 
            CAPABILITIES, U.S. DEPARTMENT OF DEFENSE

    Mr. Mercado. Chairman Langevin, Ranking Member Stefanik, 
Chairman Garamendi, and distinguished members of this 
committee, thank you for the opportunity to be part of this 
hearing on climate change and strategic competition.
    It is a privilege to be here together with my colleagues 
and to speak on behalf of the Office of the Under Secretary of 
Defense for Policy. I will focus my remarks in the Department's 
approach to protecting U.S. national security interests in the 
Arctic, a region in which changes to the physical environment 
are especially apparent and strategically important.
    The Department assesses long-term threats, risks, and 
challenges including in the Arctic within the context of the 
National Defense Strategy. The NDS was released in 2018 and is 
the Department's guiding document on the key security 
challenges facing our Nation. The NDS is clear that the primary 
challenge to the United States security and prosperity is the 
reemergence of long-term strategic competition with great 
powers. The strategy states that the erosion of our military 
advantage against China and Russia is undermining our ability 
to deter aggression in key regions.
    Moreover, as the strategy makes clear, the threats posed by 
China and Russia are immediate, pressing, and of an order of 
magnitude that sets them apart from other challenges. We are 
seeing the strategic competition take place in key areas across 
the globe, including in the Arctic. While the Department has 
oriented towards addressing strategic competition, we continue 
to recognize the existence of a range of other challenges. The 
effects of a changing climate--climate change, are one such 
issue.
    The Arctic is a region in which strategic trends are 
amplified by the effects of the changing climate and physical 
environment. Most notably, the Arctic continues to grow more 
accessible as the sea ice diminishes. The Arctic is becoming 
more navigable over greater periods of time, resulting in 
increased interest in activity in the region.
    Countries are exploring the potential of Arctic shipping 
routes, as well as opportunities in natural resource 
development and tourism. The door is opened to increased 
activity in the Arctic by the United States, our allies, 
partners, but also our strategic competitors. The Arctic will 
continue to be characterized by extreme temperatures, vast 
distances, magnetic anomalies, which complicate communications 
and market seasonal variations. Together, these conditions form 
a harsh and demanding operating environment for all, including 
the U.S. joint force.
    The DOD 2019 Arctic Strategy takes into account these 
environmental conditions as part of the Department's strategic 
approach to the region. We developed this strategy at Congress' 
prudent direction, updated from our 2016 strategy, because of 
the strategic significance with which the Department views the 
Arctic.
    Our Arctic Strategy is anchored in the priorities of the 
NDS, and frames the Arctic in a broader geopolitical context. 
It recognizes that competition in the Arctic is one dimension 
of a wider global competition. Addressing competition in the 
Arctic requires the Department to effectively implement the 
NDS, as well as take specific steps for the region using a 
whole-of-government approach.
    The Department's desired end state for the Arctic is a 
secure and stable region where U.S. national interests are 
safeguarded, the U.S. homeland is defended, and nations work 
cooperatively to address challenges. This end state recognizes 
some of the distinctive and historic characteristics of the 
Arctic security environment. The Arctic has been largely stable 
and a conflict-free region partly because of its relative 
inaccessibility and the geographic barriers to human activity 
in the region. It also reflects the deliberate decisions of 
Arctic nations to engage constructively on shared challenges in 
the region.
    The immediate prospect of conflict in the Arctic continues 
to be low, but the Department maintains a clear-eyed approach 
to our competitors' activities and their implications for U.S. 
interests. In making these assessments, we begin with the 
fundamental difference between Russia and China.
    Russia is an Arctic nation. China is not. Russia's military 
investments in the Arctic contribute to its territorial 
defense, but may have implications for access to the region. 
China is seeking a role in the Arctic to include governance, 
despite it having no territorial claims in the region. There is 
a risk that, to further its ambitions, China may repeat 
predatory economic behavior in the Arctic that it has exhibited 
in other regions.
    The DOD Arctic Strategy establishes three defense 
objectives derived from the NDS that guide the Department's 
approach to addressing competition in the Arctic: Defend the 
homeland is number one; compete, when necessary, to maintain 
favorable regional balances of power; and ensure common domains 
remain free and open.
    Our network of allies and partners are key strategic 
advantage for the U.S. in the Arctic. They are the cornerstone 
of the Department's strategic approach. Six of seven other 
Arctic nations are either NATO [North Atlantic Treaty 
Organization] allies or NATO Enhanced Opportunity Partners. Our 
allies and partners are highly capable and proficient in the 
Arctic region's arctic conditions. They also share the U.S. 
interests in maintaining the international rule-based order 
including in the Arctic region.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The joint prepared statement of Mr. Mercado, Dr. Nikolich, 
and Mr. Tipton can be found in the Appendix on page 36.]
    Mr. Langevin. Thank you, Mr. Mercado.
    Next, let me properly say the title. It is Director of 
Intelligence, Director of Defense Intelligence, Collection, and 
Special Programs. We will now hear from Dr. Neill Tipton.

 STATEMENT OF NEILL TIPTON, DIRECTOR FOR DEFENSE INTELLIGENCE 
    (COLLECTION AND SPECIAL PROGRAMS), OFFICE OF THE UNDER 
             SECRETARY OF DEFENSE FOR INTELLIGENCE

    Mr. Tipton. Chairman Langevin, Ranking Member Stefanik, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify today on the role of the defense intel 
enterprise's understanding the implications of climate change 
during this era of strategic competition.
    As the representative for the Under Secretary of Defense 
for Intelligence, I concur with the statements you heard from 
Maria Langan-Riekhof from the Office of the Director of 
National Intelligence, and the NIC [National Intelligence 
Council] and their overarching assessments on the implications 
of climate change and extreme weather; and we will continue to 
rely on these entities for their strategic perspective on these 
changes to our world.
    While the DIE [Defense Intelligence Enterprise] executes 
many roles in the Department, none is more vital than our 
direct intelligence support to warfighters. In order to stay 
ahead of potential threats, we are working a number of relevant 
initiatives within the Defense Intel Enterprise. We are 
ensuring the U.S. and allied safety of navigation. We are 
monitoring geopolitical boundaries for climate change-related 
disputes, and we are expanding our portfolio of partnerships.
    The Department of Defense, primarily through the National 
Geospatial-Intelligence Agency, maintains worldwide maritime 
and aeronautical safety of navigation databases, products, and 
services in support of U.S. and partner warfighters. Impacts to 
the shorelines of the world require continuous data collection 
and updating of safety of navigation products. We rely on this 
data to ensure the U.S. maintains its ability to project power 
worldwide.
    The warming in the Arctic is leading to an increase in 
access to previously inaccessible areas, and a corresponding 
increase in military and commercial activity above the Arctic 
Circle. The warming in this region increases or will increase 
human activity, and lead to a potential for increased disputes 
to access and resources. To provide policymakers and 
warfighters with a better common operating picture in these 
areas, the Defense Intel Enterprise and our IC partners are 
conducting a review of four maritime claims in the Arctic 
region, where some states assert overlapping entitlements, and 
this assists both defense and national policymakers in 
providing clarity in resolving potential disputes.
    In addition, we recognize that global resource competition 
will remain an ongoing national security risk. As assessed by 
the Defense Intelligence Agency, several regional conflicts in 
recent years have been exacerbated by disrupted access to 
critical resources. Shortages in food and water are often 
driven by a combination of poor resource management and extreme 
weather events, such as extended droughts.
    Whatever the root cause, prolonged resource shortages are 
likely to contribute to population displacement, and further 
worsen geopolitical instability and humanitarian crises in 
already fragile and poor economies. Monitoring these trends 
will become more important so we can help prioritize and 
mobilize our humanitarian and disaster relief efforts.
    The Defense Intel Enterprise recognizes that we are only 
one stakeholder in this area. In addition to the traditional 
military intelligence sources and analysis that we use, and the 
substantive support we get from the intelligence community, we 
rely on a substantial amount of scientific reports to provide 
accurate assessments for decision makers. As such, Defense 
Intel Enterprise components are involved in a number of 
partnerships with academia and other Federal science agencies 
through a variety of channels such as various working groups 
and grant processes. This enables us to work in an innovative 
environment with America's talented scientists on extremely 
complex models, some of which provide the Department with the 
ability to view changes in topographic features and geography 
over time.
    So we will--the Department will focus on ensuring it 
remains ready and able to adapt to a wide variety of threats, 
regardless of the source, to fulfill our mission to ensure our 
Nation's security.
    Thank you, again, for the opportunity to appear before you 
today, and I look forward to your questions.
    Mr. Langevin. Thank you, Mr. Tipton.
    Dr. Nikolich, you are recognized for 5 minutes to summarize 
your statement.

  STATEMENT OF MILAN NIKOLICH, DIRECTOR, DEFENSE RESEARCH AND 
 ENGINEERING FOR RESEARCH AND TECHNOLOGY, OFFICE OF THE UNDER 
       SECRETARY OF DEFENSE FOR RESEARCH AND ENGINEERING

    Dr. Nikolich. Thank you, sir.
    Chairman Langevin, Ranking Member Stefanik, distinguished 
members of the subcommittee, and Chairman Garamendi, I am 
pleased to be here today to discuss the Department's research 
and engineering activities related to the changing climate.
    We recognize that the changing climate constitutes a 
national security issue with potential impacts to DOD missions, 
operational plans, and our infrastructure. Our work is focused 
on understanding and forecasting changes in the global 
operational environment to inform warfighter planning and 
operations. Our work also provides new technologies and 
insights for risk management.
    The Office of the Under Secretary of Defense for Research 
and Engineering provides guidance, direction, and oversight on 
climate research and technology efforts that enable the 
military services to execute their missions. We engage in 
interagency and international partnerships on climate research. 
We work to mitigate the impacts of changing climate on DOD test 
ranges. We are also working to understand how the operational 
environment is changing.
    To do this, we are utilizing modeling and simulation for 
prediction. Additionally, we are enhancing the Department's 
ability to sustain activities and operations through adaptation 
and resilience.
    Service in OSD [Office of the Secretary of Defense] 
research activities are complementary, coordinated, and aligned 
with the unique capabilities and missions. For example, the 
Army is updating and expanding the DOD climate assessment tool 
for improved forecasting of operational risks to our 
infrastructure. The Navy is exploring new platforms for 
sustained operations--observations, excuse me, in the Arctic. 
They are also developing global weather, ocean, and sea ice 
prediction models.
    The Navy and Air Force collaborate with interagency 
partners on the National Earth System Prediction Capability, 
which is the next generation of predictive models. The Air 
Force leverages national and allied partners' seasonal and 
climate model projections to provide planning products for the 
DOD and for the intelligence community. The Office of the 
Secretary of Defense's Strategic Environmental Research and 
Development Program is identifying new approaches for ensuring 
infrastructure resilience to the changing climate.
    The Test Resource Management Center actively monitors 
potential impacts from weather and natural events at our test 
ranges. The Department's interagency and international partners 
are central to our work. We are engaged in a number of 
interagency committees through the White House Office of 
Science and Technology Policy such as the Subcommittee on 
Global Change Research. As a result of our engagement, DOD 
benefits from the significant R&D [research and development] 
investments across the Federal Government related to the 
changing climate. These committees also support international 
coordination and collaboration.
    Thank you for the opportunity to be here today, and I look 
forward to your questions.
    Mr. Langevin. Thank you, Dr. Nikolich.
    I want to thank all of our witnesses for your opening 
statements.
    We are going to now move to questions; but before I do, I 
ask unanimous consent that non-subcommittee members be allowed 
to participate in today's briefing after all subcommittee 
members have had the opportunity to ask questions. Is there any 
objection?
    Without objection, non-subcommittee members will therefore 
be recognized at the appropriate time for 5 minutes. I now 
recognize myself for 5 minutes for opening questions, and will 
recognize members in the order of seniority according to their 
appearance before the subcommittee.
    Ms. Langan-Riekhof and Mr. Tipton, I would like to refer 
back to this year's Worldwide Threat Assessment and the quote 
that global environmental degradation, as well as climate 
change, are likely to fuel competition for resources, economic 
distress, and social discontent through 2019 and beyond.
    First of all, do you agree the administration's Worldwide 
Threat Assessment? And also, I want to say that if you agree, 
then what regions of the world should we be watching most 
closely for climate change-driven instability?
    Ms. Langan-Riekhof. Chairman, thank you for that question.
    As the National Intelligence Council takes lead with the 
worldwide threat testimony, and my unit actually has 
responsibility for the climate analysis that goes into it. So 
we just very recently have been looking at last year's 
testimony as we prepare for next year's testimony, and we 
continue to agree with that analytic assessment. There are a 
range of places to look at as far as where we might see climate 
stresses that could lead to some type of conflict.
    One place, or one type of area, in particular, will be 
areas where there are potential water conflicts or water 
disputes. To date, water has not led as a single cause for any 
conflict between two nations. That said, as we move forward, 
and there are increasing droughts and there are increasing 
strains on water resources which supply more than one nation, I 
think those are areas that we need to be watchful for. Those 
are, in particular, in the Middle East, Northern Africa, as 
well as in South Asia where areas have experienced extreme 
drought. Water supplies are going to be challenging going 
forward, and we already are seeing that those are areas where 
they, you know, that could be an area of increasing tension.
    That is just one example.
    Mr. Langevin. Thank you. Thank you.
    Mr. Tipton.
    Mr. Tipton. Mr. Chairman, thank you.
    We agree with Maria's characterization of the problem. Some 
of the specific areas that we pay attention to that we know are 
potential hotspots are Sub-Saharan Africa, where they are 
particularly vulnerable to climate variability, where droughts, 
floods, cyclones, desert desertification, can cause potentially 
agricultural yield losses up to more that 20 percent. So we 
fully support and concur with Dr. Langan-Riekhof's assessment, 
and monitor the same areas.
    Russian impact on water supplies going to the Crimea, there 
are a variety of areas around the world--South Asia--that we 
pay attention to, but we really take the lead from the IC in 
helping us understand those global strategic implications.
    Mr. Langevin. Thank you.
    I guess maybe to drive into that, dive in just a little 
further, the assessment also states that heat waves, droughts, 
and floods, combined with poor governance practices, are 
increasing water and food insecurity in the world. The 
assessment specifically mentions Egypt, Ethiopia, Iraq, and 
Jordan.
    Can you discuss further implications of social unrest, 
migration, and inter-state tension within these nations? 
Anything else you want to expand upon?
    Ms. Langan-Riekhof. I think it is important to remember 
when we think about the causes of conflicts or internal 
instability that for almost any of the ones we are talking 
about, it is hard to narrow it down to a mono-cause. It is 
compounding strains. Climate, extreme weather events, often 
tend to be that threat multiplier in these cases. But for a 
decade now, we have been watching some of the implications of 
extended drought in the Middle East. We have had 5 years of 
drought conditions in Central America, which has challenged 
agricultural production.
    So, again, I am going back to water issues; but when 
communities are strained by water, we see depleted crop 
production. We see issues of internal migration and families 
moving into urban areas, increasing the strain on cities and 
government provisions. And in countries where there are cases 
of corruption or poor government services, that just kind of 
ratchets up the possibility of greater instability.
    Mr. Langevin. Thank you.
    So, Ms. Langan-Riekhof and Mr. Mercado, the 
administration's Worldwide Threat Assessment states also that 
diminishing Arctic sea ice may increase competition, 
particularly with Russia and China, over access to sea routes 
and natural resources. Can you--I know you touched on this in 
your opening statements, but can you further characterize 
Russia and China's behavior in the Arctic?
    And, moreover, in March, before the Senate Armed Services 
Committee, the EUCOM [United States European Command] commander 
testified that operational plans have been changed to respond 
to Russian movement of weapon systems to exert influence over 
the Arctic. And I wanted to ask: Are we postured sufficiently 
to counter Russian moves to exert control over the region?
    Maybe we will start with Mr. Mercado, and then we will go--
--
    Mr. Mercado. Chairman, as I said in my opening statement, 
great power competition focused on Russia and China is of great 
concern for us. As we watch what Russia is doing, how they are 
modernizing their ports, putting missile systems, systems--
modernizing their airfields so they can base aircraft out of 
that, and how they are treating countries that want to transit 
the North Sea Passage, asking, making them or demanding that 
they ask for permission, maybe use their icebreakers and 
elements like that, we are concerned.
    When we see China, who is not an Arctic nation, deploy 
research vessels up there, engage with various countries, not 
directly with the countries, but through other contacts, and 
based on my experience, looking now how--what their behavior 
brought us in the Pacific, in the Western Pacific and the South 
China Sea and their track record, so we are concerned with some 
of their activities up there.
    When we look at our posture in the Arctic, especially the 
northern warning center that we have that is aging in--was 
built in the 1950s, I know that us and Canada are looking at 
options, alternatives to modernize that, but not just for that 
warning piece, but also all the future threats like 
hypersonics, missiles, and things like that.
    So the Arctic has the attention of both the northern--
NORTHCOM [U.S. Northern Command] commander, General 
O'Shaughnessy, as well as the EUCOM commander, General Walters. 
We always do our planning by doing an intelligence assessment 
of the environment. So, we update all our plans based on the 
environment and how that could change, the intel assessment, 
and then adjust our plans accordingly, sir.
    Mr. Langevin. Thank you, Mr. Mercado.
    Ms. Langan-Riekhof, do you want to comment, please?
    Ms. Langan-Riekhof. I agree with Mr. Mercado's statements. 
I think we need to remember that Russia views the Arctic as an 
essential element of its national sovereignty. Just looking at 
its coastland, Russia's total Arctic coastline is 24,000 
kilometers; and we have watched Moscow seeking to project 
greater influence in the Arctic through many of the things Mr. 
Mercado mentioned: infrastructure development, refurbishing its 
military facilities, training, deployments.
    You know, Russia is concerned about foreign influence. It 
is investing and increasing its commercial activities as sea 
ice declines. So, yes, this is an area of concentration for the 
Russians.
    Mr. Langevin. Thank you.
    The ranking member is now recognized.
    Ms. Stefanik. Thank you.
    The Department has recently increased training activities 
in the Arctic, or near-Arctic environments, with exercises like 
Trident Juncture. What impact have these exercises and the 
development of an Arctic Strategy had on the Department's 
operational concept development, and what does the Department 
plan on doing differently and, broadly, how does OSD integrate 
climate science and policy into the development of our military 
policy?
    Mr. Mercado, I will ask that to you.
    Mr. Mercado. Thank you, Ranking Member.
    I think Trident Juncture, along with a number of activities 
that we have embarked since the Arctic Strategy, as we get into 
implementation and part of that implementation is enhancing our 
Arctic operations and an example of that is just last month, 
where the 2d Fleet deployed a maritime op center to Iceland, 
and then deployed four ships up there. And we are learning 
there is nothing like taking ships in a very harsh climate and 
learn the impact to all our weapons systems, the communications 
up at that area of latitude, and then also, the resiliency we 
have for our sailors in that environment. If you look on the 
other coast where up in Alaska, we do a number of training 
events, again, to understand the effects of the cold, harsh 
climate on our operations.
    So, I think since the Arctic Strategy, we have made a 
concerted effort to learn and assess gaps in our training; and 
we will also learn from our allies and partners as well who 
have much more experience and expertise in operating in that 
climate.
    Ms. Stefanik. I would be remiss if I didn't add, you 
mentioned Alaska, but one of the most effective and useful cold 
weather training facilities is at Fort Drum in my district, 
where we have significant capabilities, and are able to develop 
that skill set that is going to be an issue that we have to 
tackle as we look to the Arctic.
    I yield the balance of my time to Mr. Gallagher.
    Mr. Gallagher. Thank you.
    Mr. Mercado, we have seen public reporting that China is 
pursuing small-scale floating nuclear reactors to support the 
artificial island bases in the South China Sea. Is DOD aware 
and tracking those developments?
    Mr. Mercado. I am not familiar with that specific report. I 
am tracking some of the nuclear efforts of Russia in the 
Arctic, but I am not aware of that specific report in the South 
China Sea.
    Mr. Gallagher. Interesting.
    Where--I guess then, more broadly, where does DOD stand in 
terms of developing similar technology, nuclear micro reactors? 
Basically the idea is that particularly in permanent bases, 
given the vulnerabilities inherent to the grid, vulnerabilities 
for cyber attack, that it would make sense to develop an 
alternative source of energy and that there is promising 
technology in the pipeline right now. I would just be curious, 
anyone on the panel take a swing, where we stand on developing 
that technology relative to our competitors, China and Russia 
in particular.
    Dr. Nikolich. Let me respond to that.
    So the Department is looking at technologies having to do 
with what we call micro reactors in two formats: One of which 
is to serve as an energy source for our fixed locations where 
there are challenges to normal provision of electricity and 
energy, and those instances where a transportable capability 
might have application in operational settings. And so we are 
looking at both of those, and both at in terms of exploring the 
technologies and considering applications.
    Mr. Gallagher. What--I mean, what can we do in Congress to 
help expedite that process? I mean, the risk is that the 
Chinese gained a market advantage in these technologies. We 
have seen some of the capital in the private sector go to China 
actually and that we may not be able to catch up. Are there 
things here we can do in Congress to help DOD explore those 
options more expeditiously----
    Dr. Nikolich. I would say----
    Mr. Gallagher [continuing]. That are promising? I mean----
    Dr. Nikolich. I beg your pardon?
    Mr. Gallagher. Do you think they are promising? I mean----
    Dr. Nikolich. Yes, I think the thing that I would say is 
that in our pursuit of this, we are doing these activities in 
strong partnership with the Department of Energy. I think there 
is a general belief that this segment of capability could 
constitute a new area of revival for commercial providers and 
so there are--there are hopeful prospects in this area. I 
think, probably, the best I could say in terms of what we would 
ask is, for the request we put forward, if they could be 
supported by the Congress.
    Mr. Gallagher. Thank you.
    And I thank the ranking member for her indulgence.
    Ms. Stefanik. I yield back.
    Mr. Langevin. Mr. Garamendi is now recognized for 5 
minutes.
    Mr. Garamendi. Thank you, Mr. Chairman, and thank you for 
the courtesy of joining you on this hearing.
    I believe all of us are aware of the work that this 
subcommittee has done over the last several years in addressing 
the climate change issue. Much of that work found its way into 
the Readiness Committee mark, and just quickly share some of 
what was put into the mark, and I see some colleagues here who 
are aware of it.
    What we wanted to do in the mark was to make sure that the 
1,100 facilities that the Department of Defense--mark, actually 
more than a mark, it is going to be up for a vote this 
afternoon or this evening--that the Department of Defense and 
its 1,100 facilities take into account climate change and the 
impacts that it will have, or could have, from natural events, 
hurricanes, tornadoes, floods, deluges, whatever, oh, rising 
sea level, also.
    And so there is a requirement that the major bases have a 
master plan within the next 3 years to deal with this. And 
also, the Department of Defense will have limited authority, 
spending until there are plans that actually carry out climate 
resiliency. So that will be for all of the new MILCON [military 
construction] programs.
    And then the structures themselves will be redesigned to 
the maximum energy conservation and resiliency for earthquakes 
or tornadoes or floods or whatever it happens to be, and we 
want to make sure--and this is a pilot program. This may fit in 
with what Mr. Gallagher just brought up and that is energy-
sufficiency, microgrids and energy conservation on all of the 
bases. And it will be $133 million special fund to carry out 
these projects.
    And, finally, we expect there will be power outages. 
Welcome to California, and PG&E [Pacific Gas and Electric 
Company], and Southern California Edison. So there will be 
black startup programs on key bases to test it, along with the 
microgrids that go with it.
    Much of what has been discussed here is also in the bill, 
having to do with icebreakers; and, again, this committee has 
played a major role. The first heavy icebreaker is in process 
of construction, early stages design, and it is nearly complete 
in construction soon but it is one of at least four that we 
need to deal with the challenges of the Arctic which have been 
discussed here in some depth.
    Beyond that, we do know that we are going to have to deal 
with sea level rise; and it turns out that a lot of our bases 
are on the shore. We have considered two different options for 
the largest military shipyard in the world, Norfolk. One option 
is to figure out which seawalls might fit. The other is to 
outfit everybody with waders. One was those two things are 
going to have to be done because we are already seeing the sea 
level rise there.
    Beyond that, just down the line, what else should we be 
doing? Let's start with design side of it and, quickly, I don't 
know, 30 seconds apiece. What else should we be doing?
    Dr. Nikolich. Sir, I would like to maybe bring out a few 
points about what we are doing in terms of basic research and 
understanding that can support the direction you are 
describing. I would illustrate it maybe with a particular case.
    As we think about the receding of ice in the Arctic, we 
concern ourselves with the idea of thawing permafrost and 
research that is going on having to do with an understanding of 
what that means in terms of our ability to support structures 
and their design, and, along with that, how we might be able to 
instrument some of those--put instrumentation on some of those 
structures so that we can determine the onset of stresses that 
we could take steps to correct before catastrophic damage is 
effected.
    Mr. Garamendi. Thank you.
    Sir.
    Mr. Tipton. So, Mr. Garamendi, first, this is far beyond my 
area of expertise but from the Defense Intel perspective, 
obviously we will follow the lead of our partners in research 
engineering and A&S [acquisition and sustainment] in terms of 
how we protect our intelligence capability systems, buildings, 
and installed capacity that we have around the world and in the 
United States. And we will, you know, continue to work but the 
broader implications of those changes and what that means for 
the nations around the world and the implications, then, for 
us.
    Mr. Garamendi. If I might interrupt quickly.
    Mr. Tipton. Sure.
    Mr. Garamendi. Actually, you are going to be involved in 
some of this, some of your assets, for anticipatory--where the 
fires are going, where the flood might be. There are 
observation platforms that are available, and in the 
legislation this year, we do move those, make those assets 
available for climate-related challenges.
    Mr. Mercado. Sir, having watched the events where our bases 
have felt the extreme effects of weather, and also most of my 
time has been in the Pacific watching Guam take some severe 
hits time and time again, and us failing to improve the 
infrastructure and learn from that, this is hugely important 
from my standpoint in strategy, plans, and capability. What we 
need to be able to do is to generate forces, and the key to 
generating our forces is our bases and so to the degree that we 
can base, train, mobilize, operate, and generate those forces 
to where they need to be, you know, it is hugely important. So, 
all those things are much needed.
    Mr. Garamendi. We will be looking at the new construction 
projects on Guam, specifically for that Category 5 typhoon.
    Ms. Langan-Riekhof. For the intelligence community, over 
the past year, we have taken steps to increase intelligence 
sharing and collaboration across the IC and beyond. There has 
been the establishment of the Environmental Security Working 
Group in the spring of this year. It was sponsored, you know, 
by the NIC, the National Intelligence University, and the Civil 
Applications Committee to work across the community, to share 
information, to make sure we are bringing in the most recent 
and scientific research on climate, and to look at the broad 
range of risks that affect all of the agencies and the whole of 
the U.S. Government. That is a program that now is meeting 
monthly, and is exploring the range of implications.
    Mr. Garamendi. If I might, Mr. Chairman, a final 30-second 
comment, the work that you did, your subcommittee has done in 
the previous years informed us that the Department of Defense 
is a major consumer of fossil fuels of all kinds; and as a 
result of your work in the NDAA [National Defense Authorization 
Act], there will be encouragement for energy conservation on 
the bases, on the facilities, in the ships, planes, and so on 
and so forth, all of that to deal with the emissions issue.
    Really, thank you, and thank you so very much for the time 
and the work your committee has done over the many years. We 
will continue to take your work and forward it into Readiness.
    Mr. Langevin. Absolutely. Thank you, Chairman Garamendi. I 
want to thank you for your leadership on the Readiness 
Subcommittee and the time and attention you have put into the 
climate change issue, and it has been great working with you 
and particularly on the joint hearing that we recently held 
together between this subcommittee and the Readiness 
Subcommittee. So thank you for that.
    The Chair now recognizes Mr. Crow for 5 minutes.
    Mr. Crow. Thank you, Mr. Chair.
    And thank you to all the witnesses for joining us today on 
the important topic.
    Mr. Mercado, beginning with you, over the past several 
months, I have been holding roundtables with senior leaders 
from the Department of Defense and Department of Energy and 
outside experts to explore the importance and challenges 
associated with the effects of climate change on our 
operational capabilities and our installations. As the threat 
from extreme weather due to climate change continues to grow, 
we are asking our troops to fight in increasingly extreme 
environments.
    At the policy and planning level, how is the Department 
adapting its strategy to reflect the changing environment we 
are seeking our soldiers to operate in? And what additional 
authorities are necessary to adapt at the rate that we are 
seeing ourselves having to adapt?
    Mr. Mercado. Sir, I think we start with implementing the 
Arctic Strategy that we developed and published. So it is one 
thing to develop the strategy. It is the other thing, the next 
step is to implement it; and from that, the ways we have 
identified to do that is to first build the awareness of not 
only the Arctic, but also trying to predict severe climate.
    Also enhancing our operations, like I said earlier, about 
increasing the operations that we conduct, either in the Arctic 
or in other places with regard to it, so we can learn and make 
our systems more resilient, not only the ones that are ashore, 
but also our ships and also our service members.
    And then the other part is much broader and applies to the 
Arctic and the Arctic Strategy about working with our partners. 
Some of the partners, like I said earlier, have very large 
expertise in operating in these environments; and we can learn 
from them as we work to them to increase that skill set.
    Mr. Crow. A follow-on question for the whole group, whoever 
wants to chime in on this one. You know, you represent various 
agencies, you know, departments, but there is a lot of our 
government that has equities in the Arctic. Which of those are 
not represented here today that you think are relevant for this 
discussion, and do you have challenges with siloing? Are people 
kind of within agency silos, and are there things that Congress 
can do to help break down any barriers that might exist and 
increase collaboration across the Federal Government?
    Dr. Nikolich. If you would allow me, maybe one--speak to 
one aspect of that, and that has to do with in our research and 
technology area. We are participants in a number of committees 
under the White House's Office of Science and Technology Policy 
that are specially designed to help foster our collaboration 
and sharing of information, knowledge, models, and all the rest 
across the interagency to the benefit of all executive branch 
members.
    It is worth pointing out that those are brought together 
actually as a statutory requirement. So, as a result of action 
on the part of Congress, those committees have come together.
    Mr. Crow. And is that operating effectively in your view?
    Dr. Nikolich. Yes, sir.
    Mr. Crow. Okay. Would the others like to chime in on that?
    Mr. Tipton. Not on that, Mr. Crow, not on that specific 
subject, but related to your question about siloing and 
breaking down of the barriers between some of the components--
if you look at what has happened over the last 10 years within 
defense intel and the intelligence community, the changes that 
have been implemented in terms of forcing that integration 
across the various practitioners within those very broad 
enterprises have been very, very effective.
    Dr. Langan-Riekhof mentioned the ESWG, the Environmental 
Security Working Group, that is an example of a fairly new 
entity that brings together all these various components to 
cause to happen that information sharing that you need to have 
to have that collaborative effect and break down those 
stovepipes. So I think in a nutshell, we have made tremendous 
progress in enabling those crossflows of communication within 
the Defense Intel Enterprise, the IC, and our relationship with 
academia, with all the other folks that have a role in this 
kind of activity.
    Mr. Mercado. Sir, the value of plans is it helps break down 
stovepipes. Like I said, planning starts with intel, 
preparation of the environment, and the assessments. And then 
it is critical to planning, once you have developed that plan, 
is the posture associated with executing that plan because the 
plan is no good unless the bases and the posture that you have 
in the region can support that. So that brings all of the other 
DOD components, and all the services who have to execute the 
plans and all the training and force development and all that 
that entails.
    So at least with the strategy and how we--we have a 
resurgence of planning in the Department, I think that is 
helping to bring different parts of the Department together.
    Mr. Crow. I am out of time.
    So, Mr. Chair, I would yield back.
    Mr. Langevin. I thank you, Mr. Crow.
    We are going to do a second round. So, if you have further 
questions, you will be able to get them in then.
    So I recognize myself for 5 minutes.
    Dr. Nikolich, what modifications would we need to make for 
our forces to be able to operate in newly opened Arctic? I know 
we have touched on some of this already, but what changes would 
we need to--modifications would we need to make? And are 
surface fleets capable of operating in subfreezing waters? And 
do we have sufficient polar satellite coverage?
    Dr. Nikolich. Let me respond in this way: With respect to 
operational capabilities, it is really outside my area of 
expertise, but I would say that with respect to developing the 
understanding to inform how we need to go about doing that and 
the capabilities that are necessary, the Navy is, of course, 
leading the way in gathering the necessary data to go into our 
modeling capabilities to project what conditions we are likely 
to face, and, in turn, then provide a basis for determining 
specific capabilities.
    With respect to observational capabilities, I beg your 
pardon, but I can't speak in particular depth, but I can say 
that two things are happening: the first of which is we are 
drawing not only on our own capabilities and sensors that are 
being emplaced, but also drawing from the sensing capabilities 
within the civil component of our space capabilities. And 
through our partnerships, we can look for opportunities for our 
partners to collaborate, in terms of providing data sources for 
our models.
    Mr. Langevin. Thank you. Anything else, Mr. Mercado? Mr. 
Mercado, do you want to chime in about modifications that we 
need to make?
    Mr. Mercado. Yes, Chairman. I think, based on the nature of 
the environment, much of the operations are conducted by the 
Air Force, and also the submarines. As you know, we conduct 
ICEX [Ice Exercise] there. So recently now, I am interested to 
see the feedback from the Navy's efforts to start operating 
more in that environment.
    So I think we have much to learn on the surface side, but 
we have very good engineers that can adapt, like we have 
adapted to the dust in the Middle East. And as we operate more 
up in the Arctic, we will learn more to make our surface force 
more resilient.
    Mr. Langevin. Would this include additional expansion of a 
base and operating facilities?
    Mr. Mercado. Well, sir, part of the Arctic Strategy talks 
about reviewing infrastructure required to project power and 
operate in the Arctic. So we have some work to do to do that 
assessment on the requirements for a strategic port up in 
Alaska or other places that will help enable those operations.
    Mr. Langevin. Very good. Thank you.
    With that, unless there is any other comment, I will yield 
to the ranking member.
    Ms. Stefanik. Great. One final question. Dr. Nikolich, 
while this isn't specifically a DOD issue, I did want to get--I 
did want to raise this for your awareness and get your 
feedback.
    We have heard from the commercial sensing industry about a 
concern about the development of 5G networks, especially those 
networks that will operate in similar bands to the same bands 
used by weather satellites to detect water vapor, potentially 
compromising weather forecasting. This might be for you or Mr. 
Mercado. Is this something that DOD is aware of, and are there 
any research efforts to mitigate this potential challenge?
    Dr. Nikolich. I am sorry, but I am not knowledgeable on 
that specific topic, but that I am not knowledgeable off the 
top of my head doesn't mean that we are not aware of it. So if 
you will allow me, I would prefer to take that for the record 
and give you a proper and thorough answer on that.
    Ms. Stefanik. Sure. I appreciate. I will take that response 
for the record and look forward to it. Mr. Mercado, do you have 
anything to add?
    Mr. Mercado. Nothing other than I know that 5G is a 
concern. But we can take that question for the record.
    Ms. Stefanik. Okay. With that, I yield back.
    [The information referred to can be found in the Appendix 
on page 51.]
    Mr. Langevin. Thank you, Ranking Member.
    One final question I had, Ms. Langan-Riekhof and Mr. 
Mercado will probably be the appropriate ones to address this, 
but could you please describe U.S. engagement with the Arctic 
Security Forces Roundtable, and what are the priorities that 
have been discussed?
    And are there participating nations--are the participating 
nations concerned about expanding Chinese influence in the 
region? We have talked about Chinese influence in the region 
already, but anything else you want to expand upon there, but 
if you take the Arctic Security Forces Roundtable.
    Mr. Mercado. Mr. Chairman, I am not familiar with that 
roundtable, but I can reiterate my concern about China's 
operations in the Arctic region. But my main concern is, as I 
watch their activity, as we watch their activity is to avoid 
another episode similar to the South China Sea, because I would 
think that somewhere in the past, as China started to reclaim 
those features, we had an opportunity probably to check that 
behavior. So what I am hoping is that we don't make the same 
mistake as we monitor China's activities in the Arctic.
    Mr. Langevin. Thank you. Do you have anything to add, Ms. 
Langan-Riekhof?
    Ms. Langan-Riekhof. I would also have to take back that 
question on the security forces in the Arctic. I don't have any 
information on that. But we are closely tracking what China is 
doing in the Arctic: its commercial activities, its shipping 
activities, and also, many of its public statements it has made 
about its Arctic policy, calling itself a Near-Arctic state, 
and introducing the Polar Silk Road and linking it to the Belt 
and Road Initiative. So we are following it closely. I don't 
have any specific information.
    Mr. Langevin. If you can look into that and get back to us, 
that would be helpful. Thank you.
    With that last question, I will yield to Chairman Garamendi 
for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman.
    First of all, we are not going to be very successful in the 
Arctic, and probably anywhere else where there is an ocean, 
unless we become a signatory to the Law of the Sea. It is a 
major problem that we have in the South China Sea. It is 
certainly going to be, and is today, and will be in the future, 
even a greater problem in the Arctic. For example, Russia is 
claiming everything to the North Pole and beyond. We have no 
pushback because we have no status, failing to be a signator to 
the Law of the Sea.
    Secondly, for the near term, probably for the next decade, 
we will not be able to operate on the surface in the Arctic 
Ocean with naval ships unless somebody starts putting heavy 
plate on one side--on both sides of the ship. So we are going 
to have to depend upon icebreakers, of which we only have one 
heavy. We will have two heavies soon. We are going to have to 
deal with this.
    And for the Department of Defense, this is a major and 
very, very important budget item. You can talk forever, but 
until there are icebreakers or naval ships are built for ice, 
which nobody has planned yet, we are going to depend upon the 
icebreakers displaying American power in the Arctic.
    Final point--I don't know if there is any final here, but 
next point: Climate refugees. It was spoken to earlier by the 
panel. The climate refugee issue is of profound importance. We 
see them today. We talk about this mostly in the Sahel of 
Africa, but the issue of immigration from Central America is 
very, very much a climate issue, and we are talking climate 
refugees along with violence. And so, we are seeing this and we 
need to plan for that, not just for the military, obviously for 
immigration issues here in the United States, but also for 
dealing with our military operating, as an example, in the 
Sahel of Africa.
    So those are issues. I would love to have a comment on any 
of these subjects: Law of the Sea, what we are really going to 
be able to do for the next decade in the Arctic as a military 
power. And finally, you have already talked about climate and 
climate refugees. Any comment you would like to make in the 
next 2 minutes.
    Mr. Mercado. Sir, on the Law of the Sea, it has been an 
issue. And in all the international forums that I have 
experience with or been involved with, our partners bring it up 
and they challenge us. And what I tell them is that, yes, I 
mean, we are not a signatory, but always judge us by our 
actions. Judge us that we always abide by the Law of the Sea. 
All our forces do that. So while we understand that there are 
issues with us being a signatory, that hasn't happened yet, 
but, again, judge us by how we comport ourselves on the high 
seas. And that is the approach we have to take at this point.
    With regard to icebreakers, absolutely, in the Department 
we support and we need icebreakers. So we support the Coast 
Guard effort to build up the icebreaker fleet. And that would 
be helpful for operations, sir.
    Mr. Garamendi. Yield back.
    Mr. Langevin. Okay. Thank you, Chairman Garamendi. I want 
to thank our witnesses again for your testimony here today. 
Again, I will reiterate that I would have liked to have had the 
more senior leadership here testifying. They originally said 
that you would be the best people to come and testify, but this 
is also a senior leadership policy issue that we are going to 
have to confront and deal with for the foreseeable future.
    And so the senior leaders at the Department are going to 
have to become more expert on this issue and this topic 
themselves, as they are going to have to spend more and more 
time dealing with the effects of climate change, the 
consequences, both in planning, operations, in mitigating the 
effects of climate change on our bases, our military planning; 
again, the consequences of climate change worldwide as a result 
of, again, desertification or climate drought, where we might 
be asked to respond, again, on just a whole host of levels.
    So I hope in the near future that we will have senior 
leadership here as well testifying on this topic who themselves 
will be up to speed on and expert in these topics as well. They 
are going to need to be, going forward.
    So, with that, I know members had some questions that had 
asked for information to be returned to us on the record. I 
would ask that you respond to those questions expeditiously.
    And, with that, I want to thank you again for your 
testimony and the work you are doing in this area and many 
others. With that, the subcommittee now stands adjourned.
    [Whereupon, at 3:46, the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                           December 11, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           December 11, 2019

=======================================================================

      

 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
   
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           December 11, 2019

=======================================================================

      

            RESPONSES TO QUESTIONS SUBMITTED BY MS. STEFANIK

    Mr. Mercado. I defer to Dr. Nikolich and OUSD(R&E) on this issue.   
[See page 20.]
    Dr. Nikolich. Yes, the Department is aware of this issue and we 
have been engaged in ongoing interagency discussions on the matter. 
While we have not conducted detailed studies to assess the impact of 5G 
signals upon weather satellites, the Department has a long history of 
active research into technologies that have the potential to apply to 
this issue--specifically, beamforming technologies to concentrate the 
transmitted signal directly onto the receiver in a way that minimizes 
stray signals and communication methods that function using the lowest 
possible signal levels. We use these technologies to minimize adversary 
detection and to gain efficiencies but they can also potentially 
mitigate against the possibility of the interference you have 
referenced.   [See page 20.]

                                  <all>
</pre></body></html>
